OIG Audit Report GR-70-07-003

Use of Equitable Sharing Assets by the Philadelphia District Attorneys Office

Audit Report GR-70-07-003


March 2007
Office of the Inspector General


Executive Summary


 The United States Department of Justice (DOJ), Office of the Inspector General, Audit Division, completed an audit of the use of DOJ equitable sharing funds by the Philadelphia District Attorney’s Office (PDAO) in Philadelphia, Pennsylvania. The audit covered the period of July 1, 2003, through June 30, 2006, during which the PDAO received $738,805 in DOJ equitable sharing cash for participating in investigations resulting in the forfeiture of assets.1 For the period reviewed, the PDAO received no equitably shared property. 
 We reviewed the PDAO's accountability and use of equitable sharing assets and found that the PDAO did not fully comply with DOJ equitable sharing guidelines. As a result of the weaknesses, we identified $187,810 in dollar-related findings, or about 25 percent of the federal equitable sharing cash received by the PDAO during the audit period.2 Specifically, we found that the PDAO: 

 did not provide accurate Annual Certification Reports on PDAO equitable sharing activities; 
 did not establish a segregated bank account for its equitable sharing proceeds; 
 did not expend $186,219 in equitable sharing funds within 2 years of receipt in accordance with DOJ guidance; and 3
 did not maintain adequate documentation to support equitable sharing expenses totaling $1,591. 

 Our audit results are discussed in greater detail in the Findings and Recommendations section of the report. The audit objectives, scope, and methodology appear in Appendix 1. A listing of the PDAO’s expenditures is provided in Appendix 3. 
We discussed the results of our audit with PDAO officials and have included their comments in the report, as applicable. In addition, we requested a response to our draft audit report from the PDAO and the DOJ Asset Forfeiture and Money Laundering Section (AFMLS). AFMLS told us it would provide no comment on the report or our recommendations. The PDAO’s comments are included in Appendix 4.



Footnotes

The Comprehensive Crime control Act of 1984 granted the U.S. Attorney General the authority to share federally forfeited assets with cooperating law enforcement agencies. The purpose of the DOJ Asset Forfeiture Program is to deter crime by depriving criminals the profits and proceeds of illegal activities, and enhance cooperation among federal, state, and local law enforcement agencies.
The Inspector General Act of 1978 as amended contains our reporting requirements for questioned costs and funds to be put to better use.  However, not all findings are dollar-related.  See Appendix 2 for a breakdown of our dollar-related findings and for a definition of questioned costs.   
The PDAO spent $15,440 of the $186,219 prior to our audit, but not within 2 years of receiving the funds.








Return to OIG Home Page